£)■ /fi'

NO.

61-'1

v-'

J_

V

ORIGfisSAI

IN THE

Supreme Court, U.S.
FILED

SUPREME COURT OF THE UNITED STATES

JUL 0 1 2020
OFFICE OF THE Cl FRK

DANNY LEE WARNER JR. - PETITIONER
VS.
STATE OF MONTANA - RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI TO
THE SUPREME COURT OF THE STATE OF MONTANA

PETITION FOR WRIT OF CERTIORARI

DANNY LEE WARNER JR.
3022806
700 CONLEY LAKE ROAD
DEER LODGE, MT 59722

QUESTIONS PRESENTED
1. Petitioner filed a timely Motion for new trial after discovering
that prosecutors listened to privileged phone call's before and during
trial. The trial court summarily denied his Motion based solely upon
unsworn assertions in a response brief. Is the purposeful intrusion
into the attorney-client privilege per se prejudicial requiring a new
trial or is an evidentiary hearing mandated once prima facie evidence
is introduced that prosecutors knowingly searched for and seized
privileged phone calls?
2. Petitioners identification was unreliable pursuant to Biggers
and Perry, however, there is now a plethora of research and empirical
data suggesting

change in how reliability of eyewitness identifications

are determined; given this are show-up identification procedures per se
unnecessarily suggestive, is reliability susceptible to the system and
estimator variables many states have adopted, and does the allowance
of unreliable identification evidence undercut the fundamental fairness
of a trial to a degree that demands dismissal?
3.Where the only evidence used to convict Petitioner was eyewitness
identification does the refusal to proffer an eyewitness-specific jury
instruction deny the Sixth and Fourteenth Amendment protections,
particularly where the standard witness credibility instruction does
not fully or fairly charge the jury as to fallibility or the possibility
of honest but mistaken identification?
4. Did these questions, along with the denial of compulsory process,
plenary power to direct ones own defense, and Equal Protection, refusing
to send exhibit to jury or conduct evidentiary hearings, summary denial
of Motion to dismiss and Motion for new trial, and accepting unsworn
assertions as evidence combine to violate Due Process, requiring remand?
i

LIST OF PARTIES
All parties appear in the caption of the case on the cover
page.

RELATED CASES
State v Warner. No. DC-16-542(B)
Eleventh Judicial District Court of Montana
Judgement entered November 22, 2017
State v Warner. No. DA-18-0046
The Supreme Court of the state of Montana
Judgement entered April 21, 2020
Warner v 11th Judicial District Court. OP-17-0429
The Supreme Court of the state of Montana
Judgement entered August 9, 2017
Warner v 11th Judicial District Court. OP-17-0628
The Supreme Court of the state of Montana
Judgement entered November 7, 2017

ii

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION <

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1

STATEMENT OF THE CASE....................................................

2

REASONS FOR GRANTING THE WRIT

5

I. Purposeful intrusion into attorney-client privilege
II. Eyewitness misidentification.........................................
III. Cumulative error...............................................................
CONCLUSION....................................................

6
10
25
30

INDEX TO APPENDICES
APPENDIX A: Opinion of the Supreme Court of Montana
APPENDIX B: Order and rationale on post-trial motions
APPENDIX C: Motion for new trial
Addendum to Motion for new trial
Subpoena Duces Tecum
Motion for issuance of Subpoena Duces Tecum(Expedited)
Objection to courts abuse of discretion
APPENDIX D: Findings of fact & Conclusions of law
Transcript of suppression hearing
KPD radio traffic transcript
Discussion on disc going to jury
APPENDIX E: Montana general witness credibility instruction
Discussion on jury instructions
Proposed preliminary eyewitness instruction
Proposed eyewitness-specific jury instruction
APPENDIX F: Relevant trial transcripts
Letters from clerk of court
March 22, 2017 Hearing summary
Order & Rationale on pending motions
April 19, 2017 Pretrial hearing
Motion in Limine RE: Money
Discussion on limited waiver of attorney-client privilege
APPENDIX G: Declaration of Danny Lee Warner Jr.

iii

TABLE OF AUTHORITIES CITED

CASES

PAGE

Armstrong v Manzo. 380 U.S. 545 (1965)

9

Austin Lawyers Guild v Securus Techs Inc.. 2015 U.S Dist.
LEXIS 178047

5

Berger v U.S.

295 U.S. 78 (1935)

28

Bollenbach v U.S.-. 326 U.S. 607 (1894)

23

Bond v U.S.. 529 U.S. 334 (2000)

8

Briggs v Goodwin. 698 F.2d 486 (D.C. cir. 1983)

5,7

Bursey v Weatherford. 528 F.2d 483 (4th cir. 1975)

6

Caldwell v Mississippi. 472 U.S. 320 (1985)

29

California v Trombetta, 467 U.S. 479 (1984)

20

Carson v Artus, 2020 U.S. Dist. LEXIS 13204

16

.Cavasor v Smith. 561 U.S. 1 (2011)

24

Chambers v Mississippi. 410 U.S. 284 (1973)

26,27

Chittick v Lafler

514 Fed.Appx. 614 (6th cir. 2013)

5

Coleman v Alabama. 399 U.S. 1 (1970)

11

Dennis v Sec'y PA Dept. Corr.. 834 F.3d 263 (3rd cir. 2016)

22

Dowling v U.S.

10

493 U.S. 342 (1990)

Fahy v Horn. 516 F.3d 169 (3rd cir. 2008)

26

Florida v Georgia. 138 S.Ct. 2502 (2018)

9

Foster v California. 394 U.S. 440 (1969)

11

Griffin v California. 380 U.S. 609 (1965)

29

Hudson v Blackburn. 601 F.2d 785 (5th cir. 1979)

16

Indiana v Edwards. 554 U.S. 164 (2008)

28

Johnson v CoreCivic. 2018 U.S. Dist. LEXIS 226333

5

Kirby v Illinois. 406 U.S. 682 (1972)

11,16

Kyles v Whitley. 514 U.S. 419 (1995)

25,26

Lanza v New York, 370 U.S. 139 (1962)
iv

8

Livingston v Johnson, 107 F.3d 297 (5th cir. 1997)

26

Manson v Brathwaite. 432U.S.98(1977)

11,12,15
21,25
16

McFowler v Jaimet, 349 F.3d 436 (7th cir. 2003)
Minnesota v Dickerson, 508 U.S. 366 (1993)

8

Morissey v Brewer, 408 U.S. 471 (1972)

7

Neil v Biggers, 409 U.S. 188 (1972)

11,14

Parle v Runnels, 505 F.3d 922 (9th cir. 2007)

25

Payne v Arkansas, 356 U.S. 560 (1958)

26

Perry v New Hampshire, 565 U.S. 228 (2012)

11,12,15
21,25
26

Purcell v Horn, 187 F.Supp. 2d 260 (W.D. PA 2002)
Romero v Securus Techs Inc., 2018 U.S. Dist. LEXIS 198922

5

Shillinger v Haworth, 70 F.3d 1132 (10th cir. 1995)

5

Simmons v U.S, 390 U.S. 377 (1968)
State v Cunningham, 2018 MT 56

11
6

State v Henderson, 208 N.J. 208 (NJ 2011)

6.11.14.15

State v Lawson, 352 Ore. 724 (OR 2012)

6.13.14.16

State v Long, 721 P.2d 483 (Utah 1986)

11,21

State v Robins. 164 Idaho 425 (2018)
State v Warner, 2020 MT 93N
Stovall v Denno, 388 U.S. 293 (1967)
Sullivan v Louisiana, 508 U.S. 275 (1993)
Townsend v Sand

372 U.S. 293 (1963)

U.S. v Adams. 2018 U.S. Dist. LEXIS 208752

5
5,12,18,19
20,25,27
11
23
9
9

U.S. v Baker, 432 F.2d 1189 (11th cir. 2005)

26

U.S. v Carter, 2019 U.S. Dist. LEXIS 137728

5

U.S. v Cronic, 466 U.S. 648 (1984)

6,7,20

U.S. v Danielson. 325 F.3d 1054 (9th cir 2003)

7

U.S. v Kriens

5

270 F.3d 597 (8th cir. 2001)

U.S. v Levy, 577 F.2d 200 (3rd cir. 1978)
v

5

U.S. v Lewis, 719 Fed.Appx. 210 (4th cir. 2018)

15

U.S. v Massing, 311 F.Supp. 2d 309 (2nd cir 2004)

5

U.S. v Morrison. 449 U.S. 361 (1981)

7

U.S. v Novak, 531 F.3d 99 (1st cir. 2008)

8

U.S. v Scott, 420 F.Supp. 3d 295 (3rd cir. 2019)

16

U.S. v Shaw, 894 F.2d 689 (5th cir. 1990)

16

U.S. v Wade, 388 U.S. 218 (1967)

12,24

Watkins vSowders, 449 U.S. 341 (1981)

21

Young v Sirmons, 551 F3d 942 (10th cir. 2008)

26

Young v State

6,14

374 P.3d 395 (Alas. 2016)

STATUTES

PAGE

18 U.S.C. §2515, et. seq.

8

OTHER

PAGE

"A primer on the psychology of eyewitness memory"-Jennifer E.
Dysert, 64 Loy. L. Rev. 663 (Fall 2008)

22

"Attorney-client privilege under attack in jails across the
nation", Prison Legal News (May 2019)

8

"Cueing confidence in eyewitness identifications"-Michael R.
Leippe, et. al., 33 Law & Hum. Behav. 194 (2009)

22

"Did your eyes deceive you?"-Frederic D. Woocher,
29 Stan. L. Rev. 969 (1977)

12

"How reliable is your memory?"-Elizabeth Loftus,
TED TALK, (June 2013)

22

InnocenceProject.org/Understand/Eyewitness-Misidentification.php 6,10
"Manson v Brathwaite revisited: towards a new rule of decision
for due process challenges to eyewitness identification
procedures"-Timothy P. O'Toole & Giovanna Shay,
41 Val. U. L. Rev. 109 (2006)

11

"Not so Securus"-Jordan Smith & Micah Lee

31

^Reforming the law on show-up identifications"-Michael D.
Cicchini & Joseph G. Easton, 100 J Crim. L. & Criminology
381 (2010)

16

"The great engine that couldn't: science, mistaken identity
and the limits of cross-examination"-Athan P. Papailliou
& Jules Epstein, 36 Stetson L. Rev. 727 (2007)

6,22

vi

"The seven sins of memory: how the mind forgets and remembers",
Daniel L. Schacter (2001)

22

"Unspringing the witness memory and demeanor trap"-Honorable
Mark W. Bennett, 64 Am. U. L. Rev. 1331 (July 2015)

21

"Why science tells us not to rely on eyewitness accounts",
Hal Arkowitz & Scott Lillenfeld, Sci.Am. (Jan. 8, 2009)

22

"Witnessing the witness"-Matthew J. Reedy, 86 Notre Dame L.
Rev. 905 (2011)

10

vii

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to
review the judgement below.
OPINIONS"BELOW
The opinion of the Supreme Court of the state of Montana appears
at APPENDIX A to the petition and is reported at 2020 MT 93N.
JURISDICTION
The date on which the Supreme Court of the state of Montana
decided Petitioners case was April 21, 2020. A copy of that
decision appears at APPENDIX A.
The jurisdiction of this Court is invoked under 28 U.S.C. section
1257(a).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Amendment IV to the U.S. Constitution:
"The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated..."
Amendment VI to the U.S. Constitution:
"In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an impartial
jury of the state and district wherein the crime shall
have been committed, which district shall have been
previously ascertained by law, and to be informed of
the nature and cause of the accusation; to be confronted
with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and to
have the assistance of counsel for his defense"
Amendment XIV to the U.S. Constitution:
"No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person
of life, liberty or property, without due process of
1

law; nor deny to any person within its jurisdiction
the equal protection of the laws"
18 U.S.C section 2515:
"Whenever any wire or oral communication has been
intercepted, no part of thecontents of such
communication and no evidence derived therefrom
may be received in evidence in any trial, hearing,
or other proceeding in or before any court, grand
jury, department, officer, agency, regulatory body,
legislative committee, or other authority of the
United States, a State, or a political subdivision
thereof if the disclosure of that information would
be in violation of this chapter"
18 U.S.C. section 2515(4):
"No otherwise privileged wire, oral, or electronic
communication intercepted in accordance with, or in
violation of, the provisions of this chapter shall
lose its privileged character"
STATEMENT OF THE CASE
On November 23, 2016 two men were "almost robbed"[l] in a
dark alley[2] and while both had cell phones[3] the suspect did
not take, neither Jordan Miller nor Dustin McGibony attempted to
take a picture of the person.[4] Rather than call 911[5] they
went into the restaurant of Brian Scotti-Belli sometime after
the incident and had him call 911. The responding officer, Jason
Parce, interviewed all three together, without seperating them[6]
and all agreed upon the same description: 6'4" tall, wearing
distinctly square reading glasses, a gray light-colored beanie,
dark green trench coat, and looking to be in his 40's or 50's
with wrinkly skin.[7] Upon his arrest Danny Lee Warner Jr. stood
5'11" tall, was wearing rounded rectangular eyeglasses, a solid
black stocking cap, brown suede jacket, and looked to be in his
20's or 30's

with nary a wrinkle on him.[8]

The circumstances of Mr. Warners identification and arrest
are so convoluted as to require they be set out seperately.(see
2

Appendix G) This arrest, however, was the direct result of Parce
showing Miller and Scotti-Belli a single photograph of a "suspicious"
individual[9], not to identify the robber[10], but to let them know
who the police were looking for. Approximately fifteen minutes after
being shown the photo, Scotti-Belli (who was not involved in the
robbery and could not identify the suspect himself[ll]) called 911
to report that the person he had seen in the photo was sitting at
the bar of the VFW.[12] After his arrest Mr. Warner was held in the
foyer while police went to find Miller[13] who subsequently identified
Mr. Warner from the photo he had been shown[l4] while he was in
handcuffs.
Miller later testified that he was not involved in Mr. Warners
arrest[15], nor did he ever identify the person in the photo as the
robber according to Parce.[16] Miller would also testify that he did
not offer any facial features when describing the suspect because
"they didn't ask me about anything like that"[17] and "I think it
was more important that I could identify the person so easily when I
saw the surveillance" photo[18]„ The second victim, McGibony, did not
see the photo nor did he identify Mr. Warner until eleven months
later for the first time at trial, admitting that he looked Mr.
Warner up on the internet and saw pictures of him.[19]
A detective interviewed both victims for the first and only time
"several months" after Mr Warners arrest.[20] The descriptions each
gave at this time had drastically changed from that given immediately
after the incident. Parce would testify that he did not have either
victim identify the photo[21], but did show it to other officers as
a "potential suspect"[22] despite having no foundation or probable
cause to believe the person depicted was connected to the robbery in
any way. Parce would first lie in his affidavit[23] then perjure
3

himself at trial[24] to ensure Mr. Warner was convicted.
Prosecutors suborned perjured evidence from Miller in the form of
testimony that Mr. Warner called him from the jail and admitted to the
robbery[25], while the Chief of the jail testified that he did not
make any such call.[26] Mr. Warners attorney failed to obtain
exculpatory alibi evidence[27], so Mr. Warner was forced to pursue
only a mistaken identity defense. Similarly, police did not preserve
video surveillance from the VFW that would have shown Mr. Warner at
the bar when Miller went through looking for the person who had robbed
him.[28]
The trial court summarily denied Mr. Warners Motion to Dismiss forT
inter alia, Speedy trial, ineffective assistance, and prosecutorial
misconduct, without conducting any hearing, nor issuing Findings of
fact & Conclusions of law. After a supression hearing for eyewitness
identification, having completely misapprehended the facts of the
testimony and refusing to take judicial notice of State v Lawson.
Young v State, or Commonwealth v Gomes, the trial court issued
erroneous Findings of fact & Conclusions of law.(see Appendix D)
During trial the judge repeatedly testified as to what he thought
he had heard proffered into evidence.[29] Of particular relevance is
the judge saying "I didn't hear light-colored beanie, I heard gray"[30]
after Mr. Warner played the audio of the description given to police
dispatch.(see Appendix D) Aside from the impropriety of a judge
testifying, this comment was both false and emphasized in the jurors
minds a significant fact that Mr. Warner was attempting to enter into
evidence as part of his mistaken identity defense. The judge would
also refuse to send the disc containing this audio to the jury during
deliberations stating "well they don't have any way to look at it;
they can sit and look at the disk and play frisbee with it, but they
4

can t listen to itM(see Appendix D) Mr. Warners defense was further
hindered when the trial court refused to give his eyewitness-specific
jury instruction.(see Appendix E)
After his conviction Mr Warner discovered that prosecutors had
intentionally searched through illegally recorded phone calls between
himself and his lawyer and investigator (before and during trial),
seized and listened to them. Mr. Warner filed a timely Motion for new
trial and an addendum to Motion for new trial, however, despite
presenting clear and convincing evidence that prosecutors had invaded
his attorney-client privilege (obtaining at minimum trial strategy)
the trial court denied it without an evidentiary hearing based solely
upon the unsworn assertions of the prosecutor in his response.(see
Appendix C) The trial court further refused to issue a Subpoena Duces
Tecum when Mr. Warner attempted to obtain the records of all calls
the prosecutors had downloaded or listened to. Mr Warner presented
this denial of compulsory process and other serious and significant
issues to the Supreme Court of Montana

however, his appeal was not

given meaningful review. As a result Mr. Warner is serving a fifty
year sentence, with a thirty-five year parole restriction.
REASONS FOR GRANTING WRIT
Across the nation the recording of privileged phone calls and
their use by prosecutors is a hot button issue.[31] In one district
alone it was determined that between 2010-2017 1,429 attorney-client
calls were obtained by Federal prosecutors[32] and could result in
hundreds of overturned convictions.[33] Purposeful intrusion is a
question that meets all of this Courts criteria for certiorari: as an
issue of national importance it has nonetheless resulted in disagreement
between state courts of last resort[34] as well as a significant split
among the circuits.[35] Mr. Warners case is such that this Court
5

should grant certiorari to resolve the questions of per se prejudice
and mandatory evidentiary hearings whether that analysis favors him
or not.
Conversely, eyewitness identification is the most important issue
in criminal jurisprudence today. With the disproportionate percentage
of wrongful convictions being based upon eyewitness misidentification[36]
a statistic in conflict with Mr. Blackstones argument that reducing
false positives is more important than reducing false negatives[37],
this issue is ripe for review. While many state courts of last resort
are recognizing the necessity of revising outdated methods of determining
the reliability of eyewitness identifications and mandating instructions
that address their fallibility[38], others, such as Montana, remain
stuck in the past and require clarification from this Court regarding
unnecessary suggestiveness, reliability, and eyewitness-specific jury
instructions.
Cumulative error remains amorphous and ill-ddfined to the point of
ineffectiveness where in many states, such as Montana[39], it is
underutilized and requires guidance from this Court as to whether, each
error must rise to a Constitutionally offensive level on its own or
does more than one error of any type require reversal.
I,Purposeful intrusion into attorney-client privilege
The Sixth Amendment right to counsel has long been established as
fundamental to fairness in the adversarial process.[40] While this
Court has likewise recognized the necessity for preserving societys
interest in the administration of justice^"whenever the prosecution
knowingly arranges or permits intrusion into the attorney-client
relationship the right to counsel is sufficiently endangered to require
reversal and a new trial!'[41] The issue of purposeful intrusion is such
that it requires this Courts immediate attention, particularly where,
6

as here, both the trial court and court of last resort disregard the
issue altogether without so much as a shred of evidence from the State
or an evidentiary hearing to determine prejudice. "[D]ue process is
flexible and calls for such procedural protections as the particular
situation demands"[42]
The Ninth circuit has held that the mere communication of defense
strategies to the prosecution is sufficient to constitute a violation
of the Sixth Amendment[43], while this Court in Morrison left open the
question of whether intentional and unjustified intrusion upon the
attorney-client relationship may violate the Sixth Amendment.[44]
The amorphous nature of strategy is such that the question of
prejudice is too subtle for the defendant to answer and there is an
imbalance where only the prosecution can know what it did and why. In
their controlling case the D.C circuit noted "It would be virtually
impossible for an appellant.or a court to sort out how any particular
piece of information in the possession of the prosecution was
consciously or subconsciously factored into each of [their] decisions"
[45], and this is particulary true in the instant case.
Conversely, a violation occurs under the Sixth Amendment where, as
here, "[t]here are circumstances that are so likely to prejudice the
accused that the cost of litigating their effect in a particular case
is unjustified"[46] The prosecutor knowingly downloaded three privileged
calls between Mr. Warner and his investigator days before a status
hearing in which they discussed discovery violations and potential
prosecutorial misconduct.[47] It is beyond dispute that the intrusion
was intentional as he purposely bypassed the conspicuous X mark in the
private column of the phone number for Mr. Warners investigator.[48]
In another intrusion prosecutors, on the third day of trial, listened
to a call between Mr. Warner and his investigator (who sat at his
7

table during trial as part of the defense team) that was made after the
first day of trial[49], presumably to prepare for their closing. Mr.
Warner asserts that this purposeful intrusion is per se prejudicial; in
part because of the nature of the calls, the timing, and the presumption
of innocence he was to be afforded as a pretrial detainee. No person out
on bail would be subject to such intrusion and the very act of recording
privileged phone calls violates the Federal Wiretap Act[50] as well as
the Sixth Amendment, signalling the presumption of prejudice.
In an opinion authored by Justice O'Connor, the First circuit
stated that the institutional recording of inmates and their attornies
conversations itself "presents a significant Sixth Amendment issue"
and that she did "not express approval of the practice of monitoring
calls between attorneys and clients in prisons and jails"[51] a practice
that Ken Daley, then spokesman for the New Orleans District Attorneys
Office, summed up as "any call that is on that monitoring and
recording system is basically fair game."[52] The affirmative actions of
Travis Ahner constitute illegal search and seizure in violation of Mr.
Warners right to protection "against government intrusion that upsets
an. ..'actual (subjective) expectation of privacy

that is objectively...

reasonable'."[ 53 ] This Court has never directly answered the question
of whether the Fourth Amendment protects attorney-client conversations
in a jail setting, however, has ruled that warrantless searches and
seizures are per se violations of the Fourth[54], and that "[i]t may
be assumed that even in jail, or perhaps especially there, the
relationships which the law has endowed with particularized confidentiality
must continue to receive unceasing protection','[55] Under Fourth
Amendment protection the result of an illegal search and seizure would
be the exclusion of evidence obtained, however, as the trial strategy of
Mr. Warner cannot be excluded after the fact, the only remedy remaining
8

is to vacate his conviction.
The unsworn assertions in the prosecutors reply brief are unavailing
and lack any evidentiary value considering "statements in briefs are not
evidence"[56], but, more importantly perhaps, the evidence Mr. Warner
presented directly contradicts the conclusory statement of Ahner,
creating a genuine issue of material fact necessitating, at a minimum,
a hearing. Nor do such denials obviate the trial courts obligation as
an impartial arbiter to present at least the appearance of fairness or
justice given that "hunting for...privileged communication with his
attornies [is] outrageous conduct that shocks the conscienceV[57] By
suggesting that a trial judge can make a sound determination to such
crucial questions concerning the fundamental fairness of a trial
without the benefit of an adversarial test, the Montana Supreme Court
ignores the procedural nature of the Constitutional error whose
existence it purports to assume. Higher courts only defer to lower ones
findings and conclusions because of the expectations regarding the
procedures used in the proceedings and in the absence of such an
instrument for judicial judgement both fail in their gateway
determinations and the entirety of the proceedings must be brought
into question.
The fundamental requirement of Due Process is the opportunity to be
heard "at a meaningful time and in a meaningful manner"[58] and this
Court has held that where a petitioner did not receive a full and fair
evidentairy hearing in a State court, one is mandated in Federal court
[59], so it stands to reason that where no hearing is conducted at all
it violates Constitutional protections. The Fourteenth Amendment allows
this Court to mandate a Kastigar hearing[60] in such situations and
should do so here. Whether this Court finds that purposeful intrusion
is per se prejudicial or that a defendant bears the burden of proving
9

prejudice, an evidentiary hearing must, of necessity, be conducted to
determine either a properly tailored remedy to any taint or address the
evidence of prejudice, particularly where a party has alleged facts
that, if proved, would admit of relief.
II. Eyewitness misidentification
The Innocence Project has established the fact that eyewitness error
is responsible for over 70% of wrongful convictions overturned through
DNA evidence[6l] and given such a high percentage it must be wondered
how many people in this country

who cannot be exonerated by DNA, have

been the victims of mistaken identity. One estimate claims that "more
than 4,250 Americans per year are wrongfully convicted due to sincere,
yet woefully inaccurate eyewitness identifications".[62] Currently
there is no meaningful Due Process protection against honest but
mistaken identification. Many courts place the onus on defendants to
prove that an eyewitness identification is unnecessarily suggestive,
while others put the burden on prosecutors to show their identification
is reliable, though neither approach takes into consideration genuine
mistake on the part of the witness, what this Court calls fallibility.
Allowing mistaken identification evidence, regardless of reason or
reliability determinations^"is so extremely unfair that its admission
violates fundamental conceptions of justice".[63] The very nature of
the process due a person presumed innocent of a crime is such that a
series of actions or operations must take place prior to a conviction.
A missing step or misstep in that process precludes the presumption of
fundamental fairness, vitiating the end result. Due Process demands
that inadmissible evidence be barred and a likelihood of misidentification
makes such testimony inadmissible because a prosecutor must prove each
element, including the identity of a perpetrator, beyond any reasonable
doubt.
10

The current reliability test has become devoid of definitive
significance. Some courts treat the Biggers factors as a checklist and
simply go through the motions of ticking each one off to give the
appearance of justice, while others have determined these factors to
be based on assumptions flatly contradicted by well-respected and
unchallenged empirical studies.[64] Compounding the confusion is that
three of the five Biggers factors depend upon self-reporting, which
is "notoriously unreliable".[63 ] One court cited self-reporting as a
primary reason for concluding that the Biggers/Brathwaite factors
were no longer valid.[66]
In one opinion after another this Court has attempted to address
eyewitness identification^/], trying to balance Due Process with
societal considerations, however, have failed in fulfilling its
three stated goals altogether: that the jury not hear eyewitness
testimony unless that evidence is reliable, deterrence, and the effect
on the administration of justice.[68] It is time for a complete
overhaul of the existing reliability test, an upgrade to more
comprehensive protections that take into account the empirical data
collected by researchers into the psychology of eyewitness identification.
The instant case is the first to come before this Court since States
began adopting system and estimator variables to determine reliability
and Mr. Warner urges the Court to do the same.[69] In doing so it is
necessary to take the additional step of declaring show-up procedures
per se unnecessarily suggestive and mandate eyewitness-specific jury
instructions.
a. System and estimator variables
"It is the likelihood of misidentification which violates a
defendants right to due process."[/G] "The factors to be considered in
evaluating the likelihood of misidentification include..."[ 71]
11

While he asserts that his due process rights were violated under
Biggers, Mr. Warner maintains that the reliability of eyewitness
identification stands on its own without the need for any prior showing
of suggestiveness, due to the widespread recognition of eyewitness
fallibi1ity.[72] This Court held that "the trial judge must screen the
evidence for reliability pretrial"[73], then that an inquiry was only
necessary

'under unnecessarily suggestive circumstances arranged by law

enforcement".[74] These two things conflict.
This Court has been content to allow the admission of evidence in
state trials to be governed by state law, applying due process only on a
limited basis

however, "[n]o State shall make or enforce any law which

shall abridge the privileges or immunities of citizens of the United
States [75], yet Montanas laws do just that. Allowing unreliable
identification evidence, regardless of suggestiveness, undercuts the
fundamental fairness of a trial; state laws that are vague or do not put
in place procedures to prevent this are unconstitutional. In the instant
case Mr. Warner had the absolute right to a presumption of innocence that
could only be overcome by proof beyond a reasonable doubt that HE is the
person who committed the crime. The prosecutor was able to present
inadmissible evidence in the form of honest but mistaken identification
testimony because there is no law in place to.screen this out, The
Supreme Court of Montana subsequently held that absent suggestiveness
no further analysis was necessary to ascertain the "likelihood of
irreparable misidentification".[76] Likelihood is probability, however
a preponderance of the evidence determination that does not rely on
suggestiveness, but stands alone in establishing reliability.
Whils there are misidentifications caused by suggestive police
procedures, the vast majority are attributable to the unreliable nature
of perception and memory[77], thus the likelihood of misidentification

t

12

requires a pretrial procedure that adequately ascertains reliability
on its own merits. As the Court noted "[iIdentification evidence is so
convincing to the jury that sweeping exclusionary rules are required"[78]
and where state law does not do so, it is incumbent upon this Court to
provide citizens of the United States protections and privileges denied
by the state. As such, the Court should adopt the system and estimator
variables, collectively and seperately

to determine when police

procedures are unnecessarily suggestive and to ascertain reliability
respectively, allowing for any identification to be challenged pretrial.
The system and estimator variables are derived from an abundance of
scientific studies, though the courts of last resort that have adopted
them agree on the following[79]:
System variables are state-controlled factors within the
sole purview of prosecutors and police and include blind
administration of identification procedures, pre­
identification instructions, line-up construction,
feedback avoidance, multiple viewings, and show-ups.
These variables can determine unnecessary suggestiveness
and the burden must be upon prosecutors to demonstrate
that there is not a likelihood of misidentification.
Estimator variables are witness-specific factors that
include stress, weapon focus/attention, environmental
conditions, initial description, witness characteristics,
perpetrator traits, cowitness/outside influence, and
memory decay. Because reliability is case-specific and
the facts are often within state control, trial courts
must hold evidentiary hearings to determine admissibility
of identification evidence whenever doubt is raised as to
the likelihood of misidentification.
These variables are beyond the scope of this petition to fully or
exhaustively examine and explain individually, however, Mr. Warner
trusts that this Court will take judicial notice of those courts that
have not only explored the empirical data, but explained why Biggers
does not go far enough in protecting against misidentification.[80]
Instead, Mr. Warner will apply these variables arguendo to his case.
"High levels of stress or fear can have a negative effect on a witness
ability to make accurate identifications".[81] Miller stated he "was in
shock"[82], while McGibony testified he had " a little bit of PTSD".[83]
13

"When a visible weapon is used during a crime, it can distract a witness
and draw his or her attention away from the culprit".[84] When describing
the robber to 911 it was relayed that Miller could not remember because
he was focused on the gun[85] and McGibony admitted that his mind was
freshest the night of the crime "except I just had a gun in my face".[86]
This Court has long recognized the importance of "the accuracy of the
witness' prior description of the criminal"[87] in determining the
reliability of a later identification. In the instant case both victims
agreed on a description of the perpetrator, none of which fit Mr Warner
at all.[88]
"The conditions under which an eyewitness observes an event can
significantly affect the eyewitness' ability to perceive and remember
facts regarding that event".[89] The owner of the bar where the robbery
occurred testified that the back alley is "very dark" at night.[90]
"The witness' own personal characteristics affect the accuracy of an
identification".[91] Miller testified that he wears "pretty strong"
contacts and had been drinking prior to identifying Mr. Warner in
handcuffs[92], while there was no confrontation with McGibony.
"Masks, --sunglasses, hats, hoods, and other things that hide the hair
and hairline affect a witness' ability to accurately identify a
perpetrator .[93] Both victims stated that the robber wore glasses and
a beanie, but neither described any facial feature.[94] Miller could
not identify the glasses Mr. Warner was wearing when he was arrested as
those of the robber, while McGibony was certain the person had blue eyes
and a goatee and Mr. Warner has brown eyes and was clean shaven.[95]
The actions of third parties, like those of law enforcement, can
affect the reliability of eyewitness identifications".[96] Both victims
testified that they were interviewed together immediately after the
crime, rather than being seperated, and while they agreed on the initial
14

description, there are indications that an uninvolved third party
influenced their own recollection of the crime at that interview.[97]
"Memory decay is irreversible; memories never improve".[98] "...studies
have shown that showups occurring only two hours after the encounter
frequently led to misidentifications...and this is especially so where
the time period is interupted with an unnecessarily suggestive
presentation of a photograph of the defendant; in my view this eradicates
any reliability otherwise stemming from a short temporal break".[99J
Miller identified Mr. Warner approximately two and a half hours after
the crime and was shown a photograph of him in between by an officer who
testified that Miller did not identify the photo, but only looked at it.
[100] McGibony identified Mr. Warner in court eleven months after the
robbery. [101]
The estimator variables all demonstrate the unreliability of Mr.
Warners identification as the perpetrator, and even absent any element
of suggestiveness (which was present as well) the trial court should
have suppressed the identification evidence as inadmissible.
b.. Show-up identifications
This Court has held that "even if a witness did have an otherwise
adequate opportunity to view a criminal, the later use of a highly
suggestive identification procedure can render his testimony inadmissible"
[102] and without overturning Brathwaite. emphasized that "where the
indicators of [a witness'] ability to make an accurate identification
are outweighed by the corrupting effect of law enforcement suggestion,
the identification should be suppressed". |103] The inferrence is that
an unnecessarily suggestive procedure can, by itself, outweigh the
reliability factors. This would seem to imply that it is suggestiveness
rather than reliability that is the linchpin in determining the
admissibility of identification testimony based upon pretrial
confrontation.
15

A

"A showup identification is inherently sugges tive". [104] "Showup
identifications are generally considered impermissibly suggestive". [105]
"A single photograph display is one of the most suggestive methods of
identification and is always to be viewed with suspicion". [j.06] "Nothing,
that is, except the inherently suggestive environs of the courtroom". [107]
The use of single photographs, identifying suspects already in handcuffs,
and in court only identifications are always unnecessarily suggestive
and can be nothing else given the advancements in technology and
training. These procedures do not take into account this Courts
admonishments nor the system variables. Trial courts do not adequately
analyze suggestiveness and the weight given it is negligible considering
nearly every court that has found an identification impermissibly
suggestive still allowed the identification testimony, at times on the
basis of a single Biggers factor. [108] This is in conflict with the
Courts holding that "it is necessary to scrutinize any pretrial
confrontation". CL09]
Rather than having the intended deterrent effect, some courts have
praised the show-up identification as a convenient and efficient method
of resolving an investigation. [L10] This Courts previous attempts at
deterrence have failed and will continue to do so until it adopts a per
se rule that holds police and prosecutors accountable for procedures
they employ in obtaining identification evidence, one that incorporates
the system variables and is on par with fingerprint and DNA evidence.
In the instant case no lineup was ever conducted, no blind
administration or pre-identification instructions given; instead the
identification of Mr. Warner was the product of show-ups, widely
regarded as "less reliable than properly administered lineup
identifications .[111] Where, as here, the police and prosecutor had
ample opportunity to secure a more reliable identification, utilizing
the system variables but elected to rely on show-up identification
16

instead, it must be deemed per se unnecessarily suggestive, and this
Court should adopt a rule that all procedures using single photographs,
identifying suspects already in handcuffs, and in court only identification
are always impermissibly suggestive.
Every aspect of Millers identification of Mr. Warner was questionable:
A)his initial description did not match Mr. Warner in any way[112], B)he
was shown a single photo of Mr. Warner, not to identify him, but simply
shown a "suspicious" person[ll3], C)he identified Mr. Warner in
handcuffs after having been drinking and seen the photo[H4], and D)he
lied under oath at trial.[115] It is significant that officer Parce did
not have Miller identify the photo

but only talked to Scotti-Belli, the

uninvolved third party:
Q: Now, you previously testified under oath that you
remembered showing Scotti-Belli and could not
recall showing that to Miller is that right?
A: Yeah, I remember conversing with Scotti-Belli, I
know the other individual was there right next
to him.
Q: So you^don't recall Miller identifying that photo?
A: I didn't correspond with him, he saw the photo.[116]
Parce showed the photo to other officers as "a potential suspect"
with no probable cause or foundation[ll7], even testifying that it was
not necessary to have a victim identify the person in the photo first:
Q: And why wouldn't you show it to the victim and the
witness before you show it to your fellow officers,
to confirm it?
A: Because the officers are the ones that are out mobile
looking for the individual, and so I wanted to make
sure that we all had similar information.
Q: So that implies you were pretty convinced already
that that was the person?
A: No sir.
Q: You didn't feel it necessary - you didn't think it
would have been necessary to confirm it with the
victim first, then show officers?
A: No, not necessarily.
Q: Wouldn't that have given you a more reliable
foundation for the photograph?
A: Not necessarily.
Q: Confirming it with the victim wouldn't have given
a
a more rfrliable foundation for that photograph?
A: Not necessarily.[118 ]
6 F
17

Parce admitted that showing a single photo was not proper procedure
[119], then testified that, in his opinion, single-photo identifications
should not be avoided in most situations. [120] This photograph was
first used to release an individual who had been detained at gunpoint
in the exact direction the victim had said he'd seen the robber walking,
again without confirming it with that same victim, who was a mere two
blocks away, or have Miller identify the man who "couldn't have fit
the description better".[121] Because officers were locked in on the
person in the photo, they did not even ask the man they had detained
at gunpoint his name, nor file any report of the stop, but simply let
him go.[122] Officer Parce did not take notes of the scene, nothing
about the weather or how dark it was outside[i23] and did not keep
the notes he did take.[124] After a long line of questioning regarding
police procedure for eyewitness identifications, including writing
seperate reports, blind administration, and the importance of
non-suggestive methods, Parce admitted that he disregarded all of it.
[125] The trial court erroneously held this procedure to not be
suggestive.[126 ]
McGibonys identification was shown to be unreliable at trial,
though should never have been allowed. The State did not produce
McGibony at the suppression hearing and the judge was so oblivious to
what was going on in his courtroom he did not even know Mr. Warner
had moved to have McGibonys identification testimony suppressed. [l27>]
Without requiring any evidence the judge summarily denied Mr. Warners
motion to suppress McGibonys in court only identification, despite
his prima facie showing that it was based on factors other than his
own recollection of the crime. [128>]
The Montana Supreme Court acknowledges that McGibonys identification
of Mr. Warner was a show-up[i29], then misstates the facts by stating
"McGibony replied he had the keys but his vehicle was not in the lot"
18

[130], when in fact McGibony testified "I told him it was in the
parking lot".[131] This is only one example of how the trial court and
court of last resort misapprehended the facts and that Mr. Warner
received neither a fair trial nor a meaningful review. The "positive
identification" that was the result of "McGibonys recollection of the
crime"[132] likewise is misstated, as it should include McGibony
admittedly looking at pictures of Mr. Warner online before trial,
giving a completely inaccurate initial description, and his certainty
that the robber had blue eyes and a goatee, while Mr. Warner has brown
eyes and was clean shaven.[133]
McGibony identified Mr. Warner for the first and only time in court
eleven months after the robbery, having never picked him out of a
line-up, but admittedly seeing photographs of Mr. Warner. This is the
very unnecessarily suggestive identification procedure this Court has
condemned and it could have been prevented by police or prosecutors
conducting a proper line-up at any point before trial. Under Biggers
McGibonys in court only identification should have been suppressed,
however, Mr. Warner maintains that should this Court adopt a per se
rule declaring show-up identification procedures unnecessarily
suggestive, reversal of his conviction would be required.
Using sleight of hand to introduce inadmissible identification
evidence, the State improperly presented Scotti-Bellis testimony as a
de facto third identification to intentionally mislead the jury into
believing their identification of Mr. Warner as the robber was stronger
than it actually was. Despite the prosecutor assuring the trial court
that Scotti-Belli was "not being offered to identify the person who
robbed Mr. Miller and Mr. McGibony"[l34] he did just that:
Q: Okay. For the record do you see that individual
in court today?
A: I do, yes.
Q: Could you point him out please?
19

A: He's right there (indicating)
Q: What color is his shirt?
A: Blue
Mr. Ahner: Your Honor, if the record could reflect
the witness, has identified the defendant?
The Court: So reflects.[ 135]
The prosecutor then improperly emphasized this in his closing
argument asserting "we have multiple identifications of Mr. Warner in
this case. You heard with regards to Brian Scotti-Belli I saw you"[i36},
though, again, Scotti-Belli testified he could not have identified the
suspect because "I wasn't robbed" and did not see the robbery.[137] Mr.
Warner had attempted to prevent this very thing"by moving the trial
court to suppress Scotti-Bellis identification testimony, however, the
judge erroneously allowed it.
c. Eyewitness-specific jury instructions
The Court has held that the Sixth Amendment gaurantees "the right
of the accused to require the prosecutions case to survive the crucible
of meaningful adversarial testing...[b]ut if the process loses its
character as a confrontation between adversaries, the constitutional
gaurantee is violated".[138] The Fourteenth Amendment gaurantees
fundamental fairness, which "[w]e have long interpreted this standard
of fairness to require that criminal defendants be afforded a meaningful
opportunity to present a complete defense".[139] If either adversarial
testing or a complete defense are to be meaningful this Court must
mandate an eyewitness-specific jury instruction.
The Montana Supreme Court is in conflict with many other courts of
last resort in this regard. "There is no requirement that a jury be
instructed specifically on eyewitness identifications in Montana".[140]
However, the Utah Supreme Court has long since held:
"We therefore today abandon our discretionary approach
to cautionary jury instructions and direct that in
cases tried from thisdate forward, trial courts shall
give such an instruction whenever eyewitness identification
20

is a central issue in a case and such an instruction
is requested by the defense".[141j
Montanas reliance on the general witness credibility instruction
to "fully and fairly" instruct a jury is misplaced. This Court has
long recognized the fallibility of eyewitness identification evidence
and the necessity of warning jurors against the potential for mistake.
Rather than credibility then it is fallibility that trial courts must
caution the jury about, and a general credibility instruction falls far
short of any constitutional protection in this regard. "Eyewitnessspecific jury instructions...warn the jury to take care in appraising
identification evidence".[142]
As the Honorable Mark W. Bennett has noted "[t]he standards for
determining witness credibility have persisted as if frozen in time,
based on myth, and completely unconnected with current knowledge of
cognitive psychology".[142] A standard credibility instruction is
always going to favor the prosecution in criminal cases where conviction
depends upon eyewitness identification, as it simultaneously acts as a
mandatory presumption in the absence of any cautionary charge about
eyewitness fallibility and serves to shift the burden of proof from
prosecutors to accused to prove mistaken identity. Only instructing
jurors to consider the appearance of the witness on the stand, their
manner of testifying, apparent candor, fairness, or intelligence, and
believability is insufficient, focused as it is upon whether the
witness

willfully testified falsely".[144] Even with the somewhat

cautionary "You are not bound to decide any fact based upon... testimony
[that] does not convince you"[145], the general credibility instruction
is woefully inadequate given that "there is almost nothing more
convincing than a live human being who takes the stand, points a finger
at the defendant and says 'That's the one! '".[146 ]
Courts, legal scholars, and a plethora of empirical data have
21

recognized the necessity of eyewitness-specific jury instructions,
demonstrating that, inter alia, jurors do not understand how memory
works[ 147], often believe it to be much more reliable than it actually
is[l4S]> less susceptible to outside influences[149]

and tend to depend

too much on certainty[150], all of which contribute to the conviction
of innocent suspects at a "rate somewhere north of 40% in actual
cases".[151] Many mistaken eyewitnesses, by the time they testify at
trial, exude complete confidence in their identifications in large
part because they think they are telling the'truth, even when their
testimony is inaccurate. The only way to protect against this is
eyewitness-specific jury instructions, for while judges presume jurors
are able to detect liars from truth tellers, credibility is at best an
inferior indicator of reliability in eyewitness identification and
lacks all relevance to an honest, but mistaken identification. "Because
the eyewitness is testifying honestly (i.e. sincerely), he or she will
not display the demeanor of the dishonest or biased witness".[152]
While eyewitness-specific instructions may not, in se, prevent honest
but mistaken identifications, they will ameliorate the effect such
evidence has on the jury. "It is difficult to un-ring the bell that an
unreliable eyewitness identification tolls...[h]owever, robust jury
instructions can minimize the dangers associated with inaccurate
eyewitness identifications"^153]
Conversely, the refusal of an eyewitness-specific jury instruction
offends the fundamental framework of criminal jurisprudence: the
presumption of innocence, the right to confrontation, and a fair trial
before an impartial jury. The trier of fact cannot possibly assess the
evidence properly without being fully and fairly instructed on the way
in which they are to determine those facts. Both the Sixth and
Fourteenth Amendments gaurantee that a jury be impartially instructed
22

on the elements of the offense and the theory of the defense, this
latter being a part of a complete defense, and "includes, of course,
as its most important element

the right to have a jury, rather than

the judge, reach the requisite finding".[154] Even then, however,
-[t]he influence of the trial judge on the jury is necessarily and
properly of great weight and jurors are ever watchful of the words that
fall from him. Particularly in a criminal trial, the judges last word
is apt to be the decisive word".[155] To highlight just how important
the judges last word can be, consider the case of Ann Duny. The highly
esteemed Sir Matthew Hale held a trial against Duny in 1664, wherein
she was accused of witchcraft. At trial evidence was given by Anne
Durent that her son William and daughter Elizabeth had been bewitched
by Duny, suffering from strange and sad fits. Dr. Brown expressed his
expert opinion that the children had been bewitched, testifying that in
Denmark there had been a discovery of witches who used the very same
methods of afflicting people. Sir Matthew Hale instructed the jury that
they were to inquire first whether the several acts of witchcraft
mentioned in the indictment had been committed and secondly, if they
had, it was for them to say whether the accused was the guilty person.
The jurors, he said, could not doubt that there were such creatures as
witches, for history affirmed it. The jury brought in a verdict of
guilty, the judge passed a sentence of death, and Ann Duny was then
executed.[156 ] Had the Honorable Judge Hale not instructed the jury
that they could not doubt the existence of witches it is unlikely that
Ann Duny would have been convicted or executed. Thus is the reason jury
i
instructions are so significant and there can be no single element more
important in a criminal trial than proving that it is the defendant who
actually committed the crime. Absent this proof every other element
must, of necessity, fail.
23

Some courts consider cross-examination sufficient to satisfy Due
Process, however, this Court held in one of its earliest opinions on
the subject that cross-examination "cannot be viewed as an absolute
assurance of accuracy and reliability...where so many variables and
pitfalls exist".[157]
In the instant case the States sole evidence was eyewitness
identification, while Mr. Warners only defense was mistaken identity.
Mr. Warner maintains that, as a matter of right, he was entitled to an
eyewitness-specific jury instruction as an element of his complete
defense, one that presented the jury with his theory of the case. The
refusal to proffer such an instruction undermined Mr. Warners entire
defense by not fully or fairly cautioning jurors against the fallibility
of eyewitness identification in general or the risks of an honest but
mistaken identification specifically, depriving Mr. Warner of all
meaningful adversarial testing in the process. While he was able to
present evidence of his innocence, even putting forth the person who
likely committed the crime[158], the State did not prove beyond a
reasonable doubt the identity of Mr. Warner as the individual
responsible for the robbery

thus denying him his Sixth and Fourteenth

Amendment protections.
Mr Warner contends that, properly instructed on the fallibility of
eyewitness identifications, "no rational trier of fact could have
agreed with the jury".[159] There is no reason to believe that the
jurors who convicted Mr. Warner were any more enlightened about memory
formation or recall than those who participated in the plethora of
studies cited, yet they were instructed to depend only upon credibility.
A reasonable juror could easily interpret the standard credibility
instruction as conclusive and irrebuttable, that the eyewitness who
testifies to having seen the crime is to be believed over any other
24

witness, including an expert simply offering opinion. At the very
least, there is a substantial likelihood that the jury interpreted the
trial courts instructions to prevent consideration of an honest but
mistaken identification. Nothing in the overall charge cautioned jurors
on the fallibility of eyewitness identification, but simply reinforced
common misconceptions about certainty and memory, even directing their
attention to the archaic notion of "apparent intelligence".[160]
During the settlement of instructions the trial court simply said
n<-) requirement that a jury be instructed specifically on
eyewitness identification in Montana"[161], instead of considering Mr.
Warners instruction according to the facts of the case. The Montana
Supreme Court cited the trial court verbatim, only adding that "[h] ere,
the jury instructions properly instructed the jury on witness credibility"
[162], a fact that Mr. Warner does not dispute. What is at dispute is
the complete lack of any warning against the fallibility of eyewitness
identifications in the jury instructions. A witness

candor is utterly

irrelevant to an honest but mistaken identification and this Court has
held that protections against this last include "eyewitness-specific
instructions warning juries to take care in appraising identification
evidence".[163] This is sufficient reason alone for this Court to
mandate eyewitness-specific jury instructions. "[T]he arguments in favor
of fashioning new rules to minimize the danger of convicting the
innocent on the basis of unreliable eyewitness testimony carry
substantial force".[164]
III. Cumulative error
The cumulative effect of multiple errors can violate due process
even where no single error rises to the level of a constitutional
violation or would independently warrant reversal".[165] While this
Court has had occasion to examine the cumulative effect in the Brady
context[166] it has never addressed the issue of cumulative error,
25

the doctrine "that the aggregate of non-reversible errors (i.e. plain
errors failing to necessitate reversal and harmless errors) can yield
a denial of constitutional rights to a fair trial, which calls for
reversal".[167] Put another way "[t]he reliability of a state criminal
trial can be substantially undermined by a series of events, none of
which individually amounts to a constitutional violation", though
together erode the fundamental fairness of that trial.[168]
Courts of last resort, as well as circuits

seem to be split as to

what constitutes cumulative error and how to apply it on review.[169]
Mr. Warner maintains that his Sixth and Fourteenth Amendment rights
were violated from an aggregate of erroneous court rulings and
prosecutorial misconduct. The question is not if these errors and
misconduct, analyzed alone, rise to the level of constitutionally
offensive, but whether together they "put the whole case in such a
different light as to undermine confidence in the verdict".[170]
Mr. Warners "defense was far less persuasive than it might have been
had he been given an opportunity ton maintain plenary power over it.[171]
Mr. Warners claims, like those of Chambers, "rests on the cumulative
effect of those rulings in frustrating his efforts to develop an
exculpatory defense".[172] His was an identity trial and allowing
inadmissible identification evidence, coupled with the denial of an
eyewitness-specific jury instruction and the refusal to send properly
admitted audio exhibit to jury denied Mr. Warner due process. The
judge testified several times at trial (falsely in places), adding to
the cumulative effect of his refusal to conduct evidentiary hearings,
the summary denial of Motions to dismiss and for new trial, accepting
unsworn assertions from the state as evidence, and allowing perjured
testimony, this last an alleged admission that, like the coerced
confession, "vitiates the judgement because it violates the due process
clause of the Fourteenth Amendment".[173]
26

The trial court frustrated Mr. Warners Faretta rights by denying
his autonomy over his defense in not allowing him to withdraw a motion
to preserve his speedy trial right[174], refusing to enforce subpoenas
or even issue them[175], allowing discovery violations, while forcing
Mr. Warner to have standby counsel initial all documents before he
could file them[176], which created procedural delay that prejudiced
his case, and denying Mr. Warner a limited waiver of attorney-client
privilege[177], all of which had a one-sided impact upon Mr. Warners
defense that denied him "a trial in accord with traditional and
fundamental standards of due process".[178]
The trial court made multiple erroneous rulings and this Court has
held that "the cumulative effect of such erroneous rulings require
reversal of the conviction".[179] The most damaging ruling was the
summary denial of Mr. Warners Motion to dismiss for, inter alia, speedy
trial without conducting any analysis nor issuing Findings of fact and
Conclusions of law as required. The Montana Supreme Court conceded that
the district court erred in its speedy trial analysis[180], then, once
more, misstates the facts of the case to justify the error. "The record
clearly demonstrates Warner, while representing himself, twice moved
for a psychiatric examination".[181] What the record actually reflects
is that Mr. Warner did not begin representing himself until March 22,
2017[182] and that the trial court refused to even acknowledge any of
his motions or letters before that date[183], nor instruct the State to
respond to them, thus the two motions mentioned (February 1, 2017 and
March 2, 2017) were never properly before the court or subject to its
ruling. Furthermore

even if they were, Mr. Warner clearly informed

the court that he wanted to withdraw these motions to preserve his
speedy trial right, but was denied the autonomy of directing his own
defense. The Montana Supreme Court cannot have it both ways: either Mr.
27

Warner was representing himself, in which case he had the plenary power
to withdraw the motions as a strategic decision, or the time attributed
to him in the speedy trial analysis should have been properly assigned
to the court for forcing him to go to the state hospital against his
strenuous objections.[184] Both of these cannot be concurrently true,
for as this Court has held, "if the Court is to honor the particular
conception of 'dignity' that underlies the self-representation right,
it should respect the autonomy of the individual by honoring his choices
knowingly and voluntarily made".[185]
Having already invaded Mr. Warners attorney-client privilege and
learned of his trial strategy, the State was able to supplement the
contested identifications with inflammatory and inaccurate remarks
during closing argument, to mislead the jury into believing Mr. Warner
was guilty. Aside from the impropriety of sandbagging Mr. Warner by
having co-counsel give only ten minutes and reserving the remaining
fifty for himself, the lead prosecutor manipulated and misstated the
evidence, implicated Mr. Warners right to remain silent, and raised an
entirely novel notion of the arrangement of the money during his
closing remarks, knowing that Mr. Warner could no longer respond. The
State was also allowed to manufacture identification evidence through
the testimony of an individual who was not present for the robbery
despite Mr. Warners attempt to suppress this very inadmissible evidence
pretrial. Where, as here, the States case was weak to begin with, the
cumulative effect of the prosecutorial misconduct substantially affected
the jury's verdict.
There are several improper remarks during closing argument and the
prosecutors misconduct was not

slight or confined to a single instance,

but...was pronounced and persistent, with a probable cumulative effect
upon the jury which cannot be disregarded as inconsequential".[186]
28

And so one of the things that we have is this
surveillance photo...that shows this hat, and in
that light I submit to you that hat does look
gray...theres been no dispute that this is Mr.
Warners and yet this is the hat that was found
on him."[187]
"...when Mr. Warner was brought in and when Mr.
Warner was seen kicking chairs, kicking doors,
yelling, telling officers 'you think your safe
here? You're not.' Now, why would Mr. Warner say
that?"[188]
"So his statements such as 'you think you're safe
here, you're not'...[189]
"...there was no coat and there was no shoes.
Ladies and gentlemen, shoes make a difference
with regard to height."[190]
"If Danny Warner is innocently at the counter of
the VFW drinking a beer and two officers come
lock him up and send him out the door, he
doesn't say a word? Not one word? What's going
on? You got me, that's what's going on in Mr.
Warners mind."[191]
"What we have, ladies and gentlemen, we have
multiple identifications of Mr. Warner in this
case. You heard with regards to Brian Scotti^Belli I saw you..."[192]
"Ladies and gentlemen, you might be interested to
look at the cash and how it's piled together...
[i]f the person took approximately $120 worth of
cash in roughly those denominations and stacked
them in it might add up just like that, right?"[193]
Far from being ambiguous remarks that may or may not affect the jury
these were "focused, unambiguous, and strong".[194] It would be
impossible to read the prosecutors closing argument without seeing it
as a calculated and sustained attempt to mislead and inflame the jury.
-The remark about police not being safe "here" was completely irrelevant
to the case and only intended to be inflammatory considering Mr. Warner
is not from Montana, while the jury was from the area where the police
are a large part of the community. Mr. Warner had objected to the
introduction of this testimony when it was first raised[195], however,
was overruled by the judge; Mr. Warner saw no point in objecting again
during closing as it would have only irritated the jury and emphasized
the very evidence that he did not want introduced in the first place.
The remark about the gray hat is relevant considering the judge did
29

not allow the properly admitted audio exhibit that would have clarified
the color of the beanie to go to the jury. Additionally, Ahner lied
blantantly as the gray hat was not found on him; he was arrested
wearing a black stocking cap, a highly disputed fact throughout the
entire trial.
The remark about the money is particularly troubling as it was not
only raised for the first time in closing once Mr. Warner had no
opportunity to respond, but Mr. Warner had also filed a Motion in
limine "to suppress all evidence related to money purportedly taken
from Jordan Miller and exclude any testimony regarding money stolen or
recovered pursuant to Rule 403 M.R.E."[196] that was summarily denied
with the rationale that, despite the State not having the actual money
in evidence,

photographs and testimony concerning the cash are

relevant, admissible..."[197] The arrangement of the money in the
photograph was completely staged by police, rather than being how it
was actually found on Mr. Warner and he had nearly seven times the
amount allegedly stolen.
Finally, the State used Mr. Warners initial silence as evidence of
guilt, which this Court has clearly held unconstitutional.[ 198]
CONCLUSION
For all the reasons cited herein Mr. Warner respectfully prays
this Court grant his petition for a writ of certiorari.
Dated this

day of July, 2020.

Respectfully submitted,

V
DA

30

LEE WARXfR JR.

NOTES:
1] App. F, i'Tr. pg. 28406
"2] App. F, Tr. pg. 327(319-20
;3] App. F, Tr. pg. 217(39-11; pg. 297010-12
.4] App. F, Tr. pg. 217(321-25; pg. 297(313-15
,5] App. F, tr. pg. 217012-25
’6] App. F, Tr. pg. 29305-11
App. F, Tr. pg. 24809-10; pg. 296-297; pg. 429-430
.8] App. F, Tr. pg. 364014-17; pg. 43005; pg. 664013; pg. 667011-13
;9] App. F, Tr. pg. 243010-12
.10] App. F, Tr. pg. 46507-10
.11] App. D, Tr. Suppression hearing, pg. 3608-10
.12] App. F, Tr. pg. 343020
.13] App. F, Tr. pg. 25607-11; pg. 256-257
.14] App. F, Tr. pg. 259016-18
.15] App. F, Tr. pg. 250011-16
,16] App. F, Tr. pg. 46507-10
.17] App. F, Tr. pg. 219015-16
.18] App. F, Tr. pg. 220016-18
.19] App. F, Tr. pg. 294021-23
=20] App. F, Tr. pg. 200013-15
.21] App. F, Tr. pg. 46507-10; pg. 468018-21
.22] App. F, Tr. pg. 46609-11
:23] App. F, Tr. pg. 420-444
.24] App. F, Tr. pg. 42802-11 and 436014-20
.25] App. F, Tr. pg. 191-192
.26] App. F, Tr. pg. 668-672
27 Arraignment
!28] App. F, Tr. pg. 234@3-5
.29] App. F, Tr. pg. 432017-19; pg 435013-14; pg. 481012; pg. 57304-6
.30] App. F, Tr. pg. 435013-14
[31] U.S v Carter. 2019 U.S. Dist. LEXIS 137728 (KS); Austin Lawyers
Guild v Securus Techs, fnc.. 2015 U.S. Dist. LEXIS 178047 (W.D.
TX); Romero v Securus Techs. Inc.. 2018 U.S. Dist. LEXIS 198922
(S.D. Cal); Johnson v CoreCivic. 2018 U.S. Dist LEXIS 226333;
see also Jordan Smith & Micah Lee, "Not so Securus", INTERCEPT
(theintercept.com/2015/11/11/securus-hack-prison-phone- companyexposes- thousands -of -calls- lawyer s-and-clients )
.32 U.S. v Carter. 2019 U.S. Dist. LEXIS 137728 *146 (KS)
:33= id. *250 and *251
:34] Compare State v Warner. 2020 MT 93N with State v Robins. 164
Idaho 425 (2018)
[35] The Tenth circuit holds that purposeful intrusion is per se
prejudicial and violates the Sixth Amendment with no showing by
defendant (see Shillinger v Haworth. 70 F.3d 1132 (10th cir.
1995); accord U.S. v Levy. 577 F.2d 200(3rd cir. 1978) and
Briggs v Goodwin. 698 F.2d 486(D.C. cir. 1983)) Conversely, the
Sixth circuit has held that the defendant must prove both
intentional intrusion and prejudice, (see Chittick v Lafler. 514
Fed. Appx. 614(6th cir. 2013); accord U.S. v Kriens. 270 F.3d
597(8th cir. 2001) and U.S. v Massing. 311 F.Supp. 2d 309(2nd
cir. 2004)) The First and Ninth circuits take a middle ground,
holding that once a defendant demonstrates prima facie evidence
of purposeful intrusion the burden shifts to prosecutors to
prove there was no prejudice under any standard, though under all
of these approaches a hearing would be required to determine
purposeful intrusion and/or prejudice.
31

[ 36] InnocenceProject.org/understand/Eyewitness-Misidentification.php
[37] see Athan P. Papailliou, "The great engine that couldn't:science,
mistaken identity, and the limits of cross-examination", 36
Stetson L. Rev. 727, 772 (2007)
[38] State v„Henderson. 208 N.J. 208(N.J. 2011); State v Lawson. 352
Ore. 724 (OR 2012): Young v State. 374 P.3d 395 (Alas. 2016)
.39] State v Cunningham. 2018 MT 56, 5133
.40, see U.S v Cronic. 466 U.S. 648 (1984)
’41] Bursev v Weathorford. 528 F.2d 483, 486 (4th cir. 1975)
.42. Morissev v Brewer. 408 U.S. 471, 481 (1972)
’43] U.S. v Danielson. 325 F.3d 1054, 1070-71 (9th cir. 2003)
,44] U.S. v Morrison. 449 U.S. 361 (1981)
,45] Briggs v Goodwin. 698 F.2d 486, 494 (D.C. cir. 1983)
,46, U.S. v Cronic, 466 U.S. 648, 658 (1984)
.47. see App. C, Addendum to Motion for new trial
.48] id. @ Tools>Reports>Call Detail>Search>Download, where prosecutor
elected to ignore the privacy filter and chose instead the most
intrusive option of downloading it to his computer to keep.
[49] see App. C, Motion for new trial, Recording access log pg. 16
[50 18 U.S.C. §2510, et. seq.
[51] U.S. v Novak. 531 F.3d 99, 102-104 (1st cir. 2008)
[52] "Attorney-client privilege under attack in jails across the
nation", Prison Legal News (May, 2019)
[53, Bond v U.S. , 529 U.S. 334, 340 (2000)(citations omitted)
[54] see Minnesota v Dickerson. 508 U.S. 366, 373 (1993)
[55] Lanza v New York. 370 U.S. 139, 143-144 (1962)
[56] Florida v Georgia. 138 S.Ct. 2502, 2546 (2018)
[57] U.S. v Adams. 2018 U.S Dist. LEXIS 208752 *62
[58] Armstrong v Manzo. 380 U.S. 545, 552 (1965)
[59] Townsend v Sand. 372 U.S. 293, 312 (1963)
[60] "Kastigar hearing= a hearing at which the prosecution must establish
by a preponderance of the evidence that the governments evidence
derives from proper nonimmunized sources" (Blackstone1s)
.61] InnocenceProject.org/Understand/Eyewitness-Misidentification.php
.62] Matthew J. Reedy, "Witnessing the witness", 86 Notre Dame L. Rev.
905, 906-07 (2011)
[63] Dowling v U.S., 493 U.S. 342, 352 (1990)(internal quotation marks
omitted)
,64] see State v Long. 721 P.2d 483, 491 (Utah 1986)
.65] Timothy P. 0 Toole & Giovanna Shay, "Manson v Brathwaite revisited:
towards a new rule of decision for Due Process challenges to
eyewitness identification procedures", 41 Val. U.L.Rev. 109,121(2006)
[66] State v Henderson. 208 N.J. 208, 286 (N.J. 2011)
[67] Stovall v Denno. 388 U.S. 293 (1967); U.S. v Wade, 388 U.S. 218
(1967); Simmons v U.S.. 390 U.S. 377 (1968); Foster v California.
394 U.S. 440 (1969); Coleman v Alabama. 399 u7s~! 1 (1970); Neil v
Biggers., 409 U.S. 188 (1972); Kirby v Illinois, 406 U.S. 682 (1972);
Manson v Brathwaite. 432 U.S. U8 (1977): Perry v New Hampshire. 565
r
U.S. 228 (2012)
,68] Brathwaite @ 111-113
:69] Biggers @ 198- see note [38]
,70] Biggers @ 198
71 Biggers (d 199-200 (emphasis added)
,72] see U.S. v Wade. 388 U.S. 218, 228 (1967)
• 73] Perry @ 232
.74. Perry @ 248
75] Fourteenth Amendment to the U.S. Constitution
.76] State v Warner. 2020 MT 93N, 5119
32

[77] see Frederic D. Woocher, "Did your eyes deceive you?", 29 Stan.
L.Rev. 969, 970 (1977)
^78] Brathwaite 0 111
’79] see note [38]
’801 id.
;si; Lawson 0 744
82] App. F, Tr. pg. 189022
;83] App. F, Tr. pg. 28705-6
=84. Henderson 0 262
=85= App. D, Tr. of Supp. Hearing pg. 39-42
=86] App. F, Tr. pg. 295013
,87: Biggers @ 199
88] see note [7]
89 Lawson @ 744
!90] App. F, Tr. pg. 327019-20
91 Young @ 423
!92] App. F, Tr. pg. 216018-23; pg. 233
’93 Young @ 424
'94] App. F, Tr. pg. 43001-2
’95] App. F, Tr. pg. 292015
96] Young @ 425
’97] App. F, Tr. pg. 29305-11
= 981_ Henderson @ 267 (internal citations omitted)
'99] U.S. v Lewis, 719 Fed. Appx. 210, 229 (4th cir. 2018)
'100] App. F, Tr. pg. 46507-10
[101] App. F, Tr. pg. 294017-18
102. Brathwaite @ 129
.103. Perry @ 239
;i04] U.S. v Scott, 420 F.Supp. 3d 295, 318 (3rd cir. 2019)
,105] U.S. v Shaw. 894 F.2d 689, 692 (5th cir. 1990)
= 106] Hudson v Blackburn. 601 F.2d 785, 788 (5th cir. 1979)
.107] McFowler v Jaimet. 349 F.3d 436, 453-454 (7th cir. 2003)
,108] see e.g. Carson v Artus. 2020 U.S. Dist. LEXIS 13204
.109] Kirby v Illinois. 406 U.S. 682, 690 (1972)(emphasis added)
110 see Michael D. Cicchini & Joseph G. Easton, "Reforming the law
on show-up identifications", 100 J Crim. L. & Criminology 381,
388-89 (2010)
111 Lawson 0 743
112 compare notes [7] and [8]
.113] App. F, Tr. pg. 243(310-12
.114] App. F, Tr. pg. 259(316-18
.115] App. F, Tr. pg. 191-192
.116] App. F, Tr. pg. 464(325-465(31-10
,117] App. F, Tr. pg. 466@9-22
.118] App. F, Tr. pg. 46706-25
1119] App. F, Tr. pg. 457@2-5
.120] App. F, Tr. pg. 464@5-7
12l] App. F, Tr. pg. 48806
'122] App. F, Tr. pg. 489024
123] App. F, Tr. pg. 454010-17
'124] App. F, Tr. pg. 45005-10
r1251 App. F, Tr. pg. 457-463
126 App. D, Findings of fact & Conclusions of law
=127= App. D, Tr. of Supp. Hearing, pg. 176019-23
=128] App. D, Motion to suppress
.129] State v Warner. 2020 MT 93N, fll9
130 id.
131 App. F, Tr. pg. 297025
33

132 133
134
135
= 136 :
137 z
—
138
139 z
140
141
142
143
=

[144]
[145]
[146]
[147]
[148]
[149]
[150]
[151]
[152]
.153]
154]
'1551
156
157]
158.
159]
160
161
162J
163]
164
[165]
[166]
[167]
[168]
[169]
[170'
[171!
[172]
[173]
[174
[175'

State v Warner, 2020 MT 93N, Til9
App. F, Tr. pg. 292@15; pg. 296019-24
App. D, Tr. of Supp. Hearing, pg. 175
App. F, Tr. pg. 321(97-17
App. F, Tr. pg. 77408-11
App. D, Tr. of Supp. Hearing pg. 3602
U.S. v Cronic, 466 U.S. 648, 656-657 (1984)
California v Trombetta, 467 U.S. 479, 485 (1984)
State v Warner, 2020 MT 93N, 1120
State v Long. 721 P.2d 483, 492 (Utah 1986)
Perry 0 246
Mark W Bennett, "Unspringing the witness memory and demeanor
trap", 64 Am. U. L. Rev. 1331 (July 2015)
App. E, Credibility instruction
id.
Watkins v Sowders, 449 U.S. 341, 352 (1981)(Justice Brennan,
dissenting)
1
see Hal Arkowitz & Scott 0. Lillenfeld, "Why science tells us
not to rely on eyewitness accounts", Sci.Am. (Jan. 8, 2009)
see Elizabeth Loftus, "How reliable is your memory?", TED TALK
(June 2013)
see Daniel L. Schacter, "The seven sins of memory: How the mind
forgets and remembers" 9 (2001)
see Michael R Leippe, et. al., "Cueing confidence in eyewitness
Identifications", 33 Law & Hum. Behav. 194 (2009)
Jennifer E. Dysert, "A primer on the psychology of eyewitness
memory", 64 Loy. L. Rev. 663, 664 (Fall 2018)
Jules Epstein, "The great engine that couldn't: science, mistaken
identity, and the limits of cross-examination", 36 Stetson L.
Rev. 727, 772 (2007)
Dennis v Sec'v PA Dept, of Corr : y 834 F.3d 263, 344 (3rd cir. 2016)
Sullivan v Louisianna. 508 U.S. 275, 277 (1993)
Bollenbach v U.S., 326 U.S. 607, 612 (1894)
James Grant, "The mysteries of all nations", chapter LVI
U.S. v Wade. 388 U.S. 218, 235 (1967)
App. F, Tr. pg. 48801
Cavasor v Smith, 565 U.S. 1, 2 (2011)
App. E, Credibility instruction
App. E, Discussion on jury instruction
State v Warner. 2020 MT 93N, 1120
Perry 0 230
Brathwaite 0 117 (Justice Stevens concurring)
Parle v Runnels, 505 F.3d 922, 927 (9th cir. 2007)(citations
omitted)
Kyles v Whitley, 514 U.S. 419 (1995)
U.S v Baker. 432 F.2d 1189, 1223 (11th cir 2005)
Purcell v Horn. 187 F.Supp. 2d 260, 274 (W.D PA 2002)
see e.g. note [165]; Livingston v Johnson, 107 F.3d 297 (5th
cir. 1997); Young v Sirmons. 551 F.3d 942 (10th cir. 2008);
Fahy v Horn. 516 F.3d 169 (3rd cir. 2008)
Kvles v Whitlev. 514 U.S. 419, 421 (1995)
Chambers v Mississippi. 410 U.S. 284, 294 (1973)
id. @ 290 n.3
Payne v Arkansas. 356 U.S. 560, 568 (1958)
see App. F, Pretrial hearing of April 19, 2017
App. C, Subpoena Duces Tecum; Motion for issuance of Subpoena
Duces Tecum (Expedited); Objection to courts abuse of discretion
34

.176]
177]
;i78]
1179']
,180]
181
182
:183J
.184.
,185]
.186]
187]
188]
1189J
.190]
191]
J1921
,193]
,194]
.195.
196]
197
198]

App. F, April 25 & September 17, 2017 letters from clerk of court
App. F, Discussion on limited waiver of attorney-client privilege
Chambers @302
s
Chambers @ 294
State v Warner-, 2020 MT 93N, 1117
id.
App. F, March 22, 2017 Hearing summary
App. F, January 30 & February 6, 2017 letters and rejected motions
App. F, April 19, 2017 Pretrial hearing
Indiana v Edwards, 554 U.S. 164, 187 (2008)
Berger v U.S..295 U.S. 78, 89 (1935)
App. F, Tr. pg. 764013-20
App. F, Tr. pg. 76605-11
App. F, Tr. pg. 775018-19
App. F, Tr. pg. 770@13-15
App. F, Tr. pg. 774@2-7
App. F, Tr. pg. 77408-10
App. F, Tr. pg. 777016-25
Caldwell v Mississippi, 472 U.S. 320,340 (1985)
App. F, Tr. pg. 41909
App. F, Motion in Limine RE: Money
App. F, Order & Rationale on pending motions, pg. 4 ■
see Griffin v California. 380 U.S. 609, 615 (1965)

3$

\

